<html>
<title> - STEM AND COMPUTER SCIENCE EDUCATION: PREPARING THE 21ST CENTURY WORKFORCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









                  STEM AND COMPUTER SCIENCE EDUCATION:
                  PREPARING THE 21ST CENTURY WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2017

                               __________

                           Serial No. 115-25

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov




                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
26-729 PDF                WASHINGTON : 2018                 















              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY MCNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas
































                            C O N T E N T S

                             July 26, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    17
    Written Statement............................................    19

                               Witnesses:

Mr. James Brown, Executive Director, STEM Education Coalition
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Pat Yongpradit, Chief Academic Officer, Code.org
    Oral Statement...............................................    37
    Written Statement............................................    39

Dr. A. Paul Alivisatos, Executive Vice Chancellor & Provost, Vice 
  Chancellor for Research, and Professor of Chemistry and 
  Materials Science & Engineering, University of California, 
  Berkeley
    Oral Statement...............................................    46
    Written Statement............................................    48

Ms. Dee Mooney, Executive Director, Micron Technology Foundation
    Oral Statement...............................................    64
    Written Statement............................................    66

Discussion.......................................................    70

             Appendix I: Answers to Post-Hearing Questions

Mr. Pat Yongpradit, Chief Academic Officer, Code.org.............    94

            Appendix II: Additional Material for the Record

Letter submitted by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    98

Qualcomm letter addressed to Representative Barbara Comstock, 
  Chairwoman, Subcommittee on Research and Technology, and 
  Representative Daniel Lipinski, Ranking Member, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    99 
 
                  STEM AND COMPUTER SCIENCE EDUCATION: 
                  PREPARING THE 21ST CENTURY WORKFORCE

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Good morning, and welcome to today's hearing titled ``STEM 
and Computer Science Education: Preparing the 21st Century 
Workforce.'' I now recognize myself for five minutes for an 
opening statement.
    Today we will discuss several initiatives in science, 
technology, engineering, and mathematics, or STEM, and computer 
science education, and how a variety of organizations engage 
students in these important fields.
    A STEM-educated workforce is necessary for innovation and 
for ensuring U.S. economic strength, competitiveness, and 
national security. As demand for skilled STEM workers continues 
to grow, the U.S. must work to fill those employment needs, 
especially with the looming retirements of the baby-boomer 
generation.
    In addition, there remains a critical cybersecurity 
workforce shortage as cyber-attacks are increasing in both 
quantity and complexity. The results from the 2017 Global 
Information Security Workforce Study predicts a worldwide 
shortage of 1.8 million cybersecurity professionals by 2022. 
Also, according to CyberSeek, 40,000 jobs for information 
security analysts go unfilled every year in the U.S., and 
employers are struggling to fill 200,000 other cyber-related 
jobs.
    I know just in my district, in Virginia, we hear about 
thousands and thousands of cyber jobs that are going unfilled. 
This is one of the most competitive areas where we know we 
could use more employees and students, and there are a lot of 
innovative programs going on trying to get students into that 
pipeline.
    It is a privilege to serve an area of Virginia where so 
many of my constituents are the most talented people who work 
on cyber issues at so many of our companies, whether it's 
Northrop Grumman or Capital One or small start-ups like 
PhishMe, and there are dozens of others. I could go on and on 
with the hundreds of companies that we have addressing these 
issues, but those are just some of the few that I have been 
able to visit and see a lot of their cybersecurity workforce in 
action.
    But whenever I visit these companies and constituents who 
work in the technology sector, a repeated concern expressed to 
me is the increasing need for individuals with appropriate 
education, training, and knowledge of cybersecurity matters, 
and how important it is that we get that pipeline from grade 
school now. There are great examples of local companies working 
to fill these workforce gaps. In Ashburn, Virginia, in my 
district, we have Telos, which is working with our local high 
school, C.S. Monroe Technology Center, which provides 
cybersecurity certificates so kids can start working right out 
of high school in these much-needed jobs, and again, getting 
into that pipeline while having employers who will often then 
pay for their college degree as well as their benefits and 
salary while they're going through school. In addition, Telos 
is working with George Washington University's Science and 
Technology campus, which is not just here in D.C., but also in 
Loudoun County.
    Yesterday, I attended an event right here in the Capitol 
with Girls Who Code. It is a program which provides young women 
experience in computer related fields and sets them on a path 
toward acquiring these important skills that will be, as we 
know, so much needed in 21st century workforce. We know there 
are not enough women in those fields, and Girls Who Code is one 
of those exciting programs that's capturing the imagination of 
these young people in high school and even earlier to get them 
on that path.
    Capital One, as I mentioned, which is headquartered in my 
district, also exposes middle school students to technology by 
partnering with schools and community leaders to inspire the 
students to focus on software engineering. Since it was 
launched, their program has had over 2,500 participants who 
have created over 500 different mobile apps.
    Additionally, Micron, who is here today, has a sizable 
facility in Manassas in my district, which, commits STEM-
focused grants and partners with Virginia universities to help 
inspire our students. They also partnered with Discover 
Technology to create their new STEM Mobile Discovery Lab, a bus 
specifically designed with interactive science exhibits where 
students are able to work with robotics and explore 3D 
printing. I am looking forward to hearing more about the work 
the they are doing during this hearing. I also wanted to thank 
them for recently coming to my Young Women's Leadership 
program, where they were also promoting one of our programs. We 
were privileged to have a number of members from NASA promoting 
the STEM fields and an astronaut who came to speak to the 
girls, so it was one of our best-attended events, and we're 
happy to promote the bus there.
    While these examples are encouraging, we know there is so 
much more we need to do to educate and train our current and 
future workforce. The workforce gap is especially troubling 
when considering the many hearings we have held in this 
Committee on federal cybersecurity issues. These hearings 
focused on cybersecurity incidents, as well as emerging risks 
which threaten federal agencies' computer networks and hundreds 
of millions of Americans who entrust their confidential 
personal data to these agencies but also their personal data 
that's in their everyday work, whether in their banks and, you 
know, in every part of our life.
    In order to fill these jobs, we must be able to harness the 
talent of our Nation's young men and women. When it comes to 
women, it's estimated that only three percent of these jobs are 
filled by women. That is part of the reason why we passed the 
INSPIRE Women Act, which was signed into law earlier this year. 
This bill leverages NASA's talent pool of current and retired 
astronauts and other career professionals, including early 
career female scientists, engineers, and innovators to inform 
and inspire young women to pursue their dreams in STEM 
subjects.
    Through the combination of public and private sector 
investments, we can help inspire our students to get into these 
programs early and to stay, to capture their imagination, to 
help them and their parents understand that this is, you know, 
very much needed in our workforce but also very exciting areas 
which can pretty much take them into any field that they may be 
interested in.
    So with that, I look forward to hearing the testimonies of 
our witnesses.
    The statement of Chairwoman Comstock follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. So thank you, and I now recognize the 
Ranking Member, the gentleman from Illinois, Mr. Lipinski, for 
his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock, and thank 
you, Chairman Smith, for holding this hearing today. This is an 
issue that's very important to me, very close to my heart. I 
want to thank all the witnesses for being here today also.
    For the past 8-plus years I have had the privilege of 
serving as first Chair and then Ranking Member of this 
Subcommittee, which was formerly the Research and Science 
Education Subcommittee before we merged with the Technology and 
Innovation Committee. I've also during that time been Co-Chair 
of the STEM Ed Caucus, and we've done a lot of work in this 
area, but a lot more still needs to be done. My experiences 
here in Congress along with my background in engineering, my 
wife was a math major and has taken that into her career, it's 
all given me a lot of insight into the importance of STEM 
education for the success of individuals in today's job market 
but also for the success of our Nation's economy. I'm not as 
well versed in computer science as in STEM ed, but I do know I 
spent much more time in the '90s as a political science grad 
student, a lot more time doing computer programming than I did 
in the 1980s as an engineering undergrad. The importance of 
computers, computer programming, has just over the last four 
decades continued to mushroom, and it's just critically 
important in so many jobs today, so I'm really glad that we're 
holding this hearing today.
    Computers, we all know, are becoming more and more integral 
to our daily lives. With a device we carry around in our 
pocket, we can video chat with loved ones, order groceries, or 
even watch a live stream of a Congressional hearing like this 
one. Looking to the future, artificial intelligence, mixed 
reality, and the Internet of Things will undoubtedly play 
larger roles in our everyday lives.
    Obviously none of this is possible without computer 
scientists and individuals with computer skills. The 
innovations coming out of Silicon Valley are inspiring, but 
industries beyond the technology sector are also integrating 
computer science and data analytics into their business models. 
With this increased reliance on computing and information 
technology, the workforce demand for computing and programming 
expertise has skyrocketed. Code.org estimates that there are 
over a half million open computing jobs nationwide as we talked 
about where are the jobs. That's the place where we have all 
these jobs that are unfilled. That means we are missing a lot 
of economic value.
    This hearing is a great opportunity to discuss challenges 
and opportunities for producing a workforce equipped to meet 
the demand for computing expertise. The National Center for 
Education Statistics reports that a record number of computer 
science bachelor's degrees were awarded in 2015. Colleges and 
universities are straining to expand their capacity to 
accommodate the surge in student interest but we're obviously 
still not producing enough skilled computer scientists. So we 
want to know what we can do to address this problem?
    There are also barriers at the high school level to 
providing access to high-quality computer science courses. 
According to a 2016 research study by Gallup and Google, only 
40 percent of schools teach computer programming. Computer 
science curricula vary from school to school as only 10 states 
have created K-12 computer science standards. Increasing the 
pool of qualified teachers has also proven to be a very 
difficult challenge.
    I'm encouraged to see that each year more schools are 
offering computer science courses and allowing students to 
count them toward credit for graduation. In fact, last year the 
Chicago Public School System became the first in the country to 
add computer science to the list of requirements for 
graduation. The Chicago Public Schools class of 2021 will be 
the first high school class in the country to graduate with 
every student having taken a computer science course. These are 
all steps in the right direction, but there is clearly more 
work to be done.
    We need to provide opportunities for adults seeking career 
retraining and continuing education to have access to coding 
and computing skills through community colleges and employment 
training centers. To that end, I was pleased to see the 
Strengthening Career and Technical Education for the 21st 
Century Act pass the House unanimously last month, but as I 
regularly hear from employers in my district, demand for these 
skills still outstrips supply.
    Finally, we need to work to ensure that all students no 
matter where they grow up, their background, their race, or 
their sex, have the opportunity to become educated in computer 
science and all STEM fields. Increasing the participation of 
women and under-represented minorities in STEM fields will not 
only increase our global competitiveness, but also help grow 
the STEM workforce.
    I look forward to a fruitful discussion about measures that 
can be taken to ensure that graduates entering the workforce 
and adults retraining for new careers are equipped with the 
necessary expertise to meet overwhelming employer demand.
    Thank you again to our witnesses for being here, and I 
yield the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, Mr. Lipinski, and I now 
recognize the Chairman of the full Committee for a statement, 
Mr. Smith.
    Chairman Smith. Thank you, Madam Chair, and also, thank you 
for having a hearing on a subject that I know is of special 
interest to both of us.
    Since our founding, American innovators have played an 
important role in our nation's growth and prosperity. With the 
rise in competition from abroad, however, we must ensure that 
America stays a world leader in innovation. We can do this in 
part by better educating American students in STEM subjects.
    Unfortunately, America lags behind many other nations when 
it comes to science, technology, engineering and math. American 
students ranked 19th in science and 31st in math out of 35 
countries. That to me is just an incredible statistic. We are 
in the bottom half in science and pretty close to the bottom 
ten percent when it comes to math. We can and must do better to 
keep America globally competitive.
    We have to capture and hold the desire of our nation's 
youth to study science and engineering so they will want to 
pursue these careers. More graduates with STEM degrees means 
more advanced technologies and a more robust economy. A well-
educated and trained STEM workforce promotes our future 
economic prosperity.
    But it is not just about the economy. These graduates have 
the potential to develop technologies that could save thousands 
of lives, jump-start a new industry, or even discover new 
worlds. We can work together to ensure that students continue 
to go into these fields so that their ideas can lead to a more 
innovative and prosperous America.
    You may be surprised to find out that STEM originally did 
not include computer science in its definition. In the last 
Congress, I introduced the STEM Education Act of 2015, which 
was signed into law. This bipartisan bill expands the 
definition of STEM to include computer science. The bill also 
helps encourage students to enter STEM fields. This measure 
directs the National Science Foundation to continue to award 
competitive merit-reviewed grants to support informal STEM 
education programs such as afterschool science programs and in 
ways that formal classroom training often does not.
    Thanks to Representative Esty, a member of this Committee, 
the bill also amends the NSF Noyce Master Teaching Fellowship 
program to allow teachers in pursuit of master's degrees to 
participate in the program. This enables more teachers to have 
the opportunity to compete for the grants.
    Another challenge is that despite representing nearly half 
of the college-educated and total U.S. workforce, women account 
for less than 25 percent of America's STEM workforce. To 
address this disparity, the first two Science Committee bills 
signed into law by President Trump helped support women's 
involvement in STEM fields. The INSPIRE Women Act was led by 
Research and Technology Chairwoman Comstock, who is chairing us 
today, and the Promoting Women in Entrepreneurship Act was led 
by Representative Esty. I thank them both for their efforts to 
help inspire women to work in STEM-related fields.
    Today we will hear from leaders and experts who focus on 
engaging students in STEM and computer science education. We 
need to learn what is taking place outside of the federal 
government so we can be sure we are not spending taxpayer 
dollars on duplicative programs, and we need to more 
effectively use taxpayers' dollars to achieve the most benefit 
for our students and our country.
    It is critical to understand what is working and how we can 
build on that success. A well-educated and trained STEM 
workforce will promote our future economic prosperity, but we 
must encourage our nation's youth to study science and 
engineering so they will want to pursue these careers.
    We need to ensure that young adults have the science and 
math skills to strive and thrive in a technology-based economy. 
You can't have innovation without advances in technology, and 
the STEM students of today will lead us to the cutting-edge 
technologies of tomorrow.
    I look forward to hearing from our witnesses, but let me 
say at the same time, Madam Chair, and also to our expert 
panelists today, that I have a Judiciary Committee markup that 
began 23 minutes ago, so I'm going to need to go there and 
shuttle back and forth.
    Also, before I finish, I just want to point out, and I 
don't think I've done this before, in regard to the Ranking 
Member, Mr. Lipinski, I was reminded of this during his 
comment, that I believe he is the only member of the Science 
Committee to have received an NSF grant. Is that your 
understanding?
    Mr. Lipinski. I did receive one. I'm not sure I'm the only 
one.
    Chairman Smith. I bet you're the only one. We have to 
remind Dr. Foster, who also has his own niche on the Committee, 
that he has some competition.
    Thank you, Madam Chair. I'll yield back.
    [The prepared statement of Chairman Smith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, and I now recognize the 
Ranking Member of the full Committee for a statement, Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Madam Chairman. This is 
an exciting occasion for me.
    I first became aware of what we now call STEM education 
when I passed my first bill in 1974 in the Texas House. I had 
met Dr. John Kilby, who worked for Texas Instruments, and 
discovered the chip, the semiconductor that carried Texas 
Instruments around the world as a leading company, and later 
met Michael Dell from Austin, Texas, who came up with the Dell 
computer, and I knew then that we needed everyone involved.
    So Madam Chairperson Comstock, I appreciate the fact that 
you're having this hearing.
    I was thrilled when President Obama announced his Computer 
Science for All initiative last year. The Computer Science for 
All initiative not only called attention to the need to improve 
computer science education, but also to the need to ensure that 
all students, including women and under-represented minorities, 
are encouraged to participate. Since President Obama's 
announcement, we have seen a flurry of activity, and progress 
has been made, but we are not there yet.
    Representative Connie Morello and I and Dr. Ellis from 
Michigan worked on this subject for seven, eight years before 
we finally got America COMPETES.
    You know, in high school, female students are taking the 
Computer Science Advanced Placement exam at rates far lower 
than any other AP exam. In 2016, female students accounted for 
just 23 percent of the AP exam takers in computer science. 
Under-represented minorities accounted for 15 percent of exam 
takers.
    The number of bachelor's degrees in computer science has 
exploded over the last several years. However, when you break 
this growth down by gender, it is apparent that it is almost 
entirely due to an increase in male graduates. Only 18 percent 
of the bachelor's degrees in computer science are awarded to 
women. The same fraction of women were earning bachelor's 
degrees in computer science in the 1970s.
    Structural and social barriers are preventing us from fully 
engaging students of both genders, students of all ethnicities, 
and students from all backgrounds as we attempt to increase 
participation in computer science. Right now, computer 
scientists are creating innovative products and services that 
will affect all of our lives. These innovations cannot meet the 
needs of society if they are developed without insights from 
women and under-represented minorities.
    One encouraging advancement has been the implementation of 
a new AP Computer Science course, called Computer Science 
Principles. The National Science Foundation supported the 
development of this course, and it is designed with the goal of 
engaging more women and underrepresented minorities in computer 
science.
     With the introduction of this new exam in 2017, 
participation in AP Computer Science exams increased by four 
percent for women and five percent for under-represented 
minorities. This is a great step forward, but more can and must 
be done to engage women and under-represented minorities at all 
levels of education.
    I look forward to discussing ways to foster a welcoming 
learning environment for all students to gain skills in 
computer science. This is essential if we are to ensure that 
the Computer Science for All initiative, launched by President 
Obama, lives up to its name.
    Before I close, I'd like to make note of the efforts made 
by a valuable member of the Committee, Representative Jackie 
Rosen. Last week, she introduced the ``Code Like a Girl Act'' 
which seeks to engage more girls in computer science at early 
levels of education, just where we're supposed to start the 
STEM orientation. I thank her for her efforts, and I hope to 
see her bill receive speedy consideration.
    I thank the witnesses for being here today, and I look 
forward to the testimony, and I yield back.
    [The prepared statement of Ms. Johnson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, Mrs. Johnson and I would 
really appreciate your comments on women's education.
    Since I'm not a science major, I'll brag about my daughter. 
My daughter was a biology major and then got her master's in 
forensic science, works at a lab here, does DNA analysis, and I 
credit her preschool education when she was in Montessori where 
before she got out of kindergarten, she knew multiplication and 
knew all her math and had that concrete understanding of 
science and math. So maybe we need to also revisit with some of 
our Education Committee Members how we can get more Montessori 
and that kind of concrete science education into our preschools 
since we're obviously spending lots of money on that preschool 
education, but sometimes they're--not to knock finger painting 
or anything--the math and the science that Montessori has is 
awesome. So, I'm going to give my little Montessori plug since 
all my kids were in that, and now I'm battling to get my 
grandchildren in there, too, since I credit that for all their 
high science scores.
    So before I introduce our witnesses today, I would like to 
ask unanimous consent to add a letter from the Computer Science 
Education Coalition into the record.
    [The information appears in Appendix II]
    Chairwoman Comstock. I will now introduce our witnesses.
    So first, our first witness today is Mr. James Brown, 
Executive Director of the STEM Education Coalition. Prior to 
joining the Coalition, he was Assistant Director for Advocacy 
at the American Chemical Society. A nuclear engineer by 
training, he previously worked as a Legislative Aide for 
Representative Doc Hastings of Washington and began his career 
as an engineer with Newport News Shipbuilding working on 
aircraft-carrier construction. Thank you. Mr. Brown received a 
bachelor's of science degree from the University of New Mexico 
and a master's of science degree from Penn State both in 
nuclear engineering. He also holds an MBA from George 
Washington University, and we look forward to hearing from him.
    Next we have Mr. Pat Yongpradit. Is that--do you want to 
say it for us?
    Mr. Yongpradit. Yongpradit.
    Chairwoman Comstock. Yongpradit. Thank you. He is the Chief 
Academic Officer of Code.org, a nonprofit dedicated to 
promoting computer science education. Prior to this role, he 
had a career as a high school computer science teacher--my 
husband also did that, so I've got to give my husband credit 
for the kids being great in science and math too--where Mr. 
Yongpradit inspired students to create mobile games and apps. 
He has been recognized as a Microsoft Worldwide Innovative 
Educator and is certified in biology, physics, math, health and 
technology education. He received a bachelor's of science 
degree from distinction in biology from McGill University and a 
master's degree in secondary science education from the 
University of Maryland.
    I now recognize Mr. Lipinski to introduce our third 
witness.
    Mr. Lipinski. It's my pleasure to introduce Dr. Paul 
Alivisatos, Executive Vice Chancellor and Provost at the 
University of California-Berkeley, which shows that even though 
I'm a Stanford guy, I'm not biased. Dr. Alivisatos is also the 
Samsung Distinguished Professor of Nanoscience and 
Nanotechnology, the Founding Director of the Kavli Energy and 
Nanoscience Institute, and Director Emeritus of Lawrence 
Berkeley National Laboratory. In his leadership Role at UC 
Berkeley, he oversees the university's many programs working to 
increase the number and diversity of students in STEM programs, 
and personally played a role in growing one of them, the 
Division of Data Science, by chairing the search committee for 
its dean. In addition to his academic achievements, Dr. 
Alivisatos is the founder of two prominent nanotechnology 
companies, Nanosys and Quantum Dot Corp, the latter which now 
is part of Thermo Fisher Scientific, the world's large 
scientific instrument company. Dr. Alivisatos holds a 
bachelor's degree in chemistry from the University of Chicago 
and a Ph.D. in chemistry from U.C. Berkeley.
    Chairwoman Comstock. Okay. And our final witness today is 
Ms. Dee Mooney, who has been Executive Director of the Micron 
Technology Foundation since 2006. In her role, she drives the 
Micron Foundation's programs--you don't drive the bus--aimed at 
advancing science and technology education and enhancing the 
quality of life in Micron's manufacturing site communities. As 
I briefly mentioned in my opening statement, of Micron's 13 
locations in the United States, the company has an important 
presence in my district, which we very much appreciate and in 
the Commonwealth of Virginia. In fact, Micron's Manassas 
location is the site of the company's flagship 300-millimeter 
water fabrication facility, deploying the world's most advanced 
memory technology. In addition to employing over 1,200 people 
on its Virginia team, Micron and the Micron Foundation have 
donated $7 million toward Virginia education and community 
organizations and partner with Virginia universities to help 
support and inspire students in STEM education.
    So, I want to thank you for all the important work that you 
do, and I think, you know, we have one example here today, but 
I know all of us could probably provide examples from our 
districts where our businesses and our small businesses and 
startups are so engaged in our community and with our students 
from a very young age. We have a Children's Science Center and 
we have various STEM programs where our businesses are always 
showing. They are active and engaged in those programs because 
you all know better than anyone understand the need for the 
STEM pipeline, so it's always very exciting for me when I see 
that STEM pipeline starting at a local, you know, science fair 
with five-year-olds, and your companies are there. So, thank 
you.
    Ms. Mooney also serves on several educational and community 
nonprofit boards in Boise, Idaho, and is currently the Vice 
Chair for Idaho's STEM Action Center. She holds a bachelor's 
degree in psychology from Iowa State University and a master's 
degree in industrial psychology from the University of New 
Haven.
    I now recognize Mr. Brown for five minutes to begin his 
testimony.

                 TESTIMONY OF MR. JAMES BROWN,

                      EXECUTIVE DIRECTOR,

                    STEM EDUCATION COALITION

    Mr. Brown. Good morning, and thanks to all of you on the 
Committee for the invitation the opportunity to testify at 
today's hearing.
    One of the roles our Coalition plays is to listen to and be 
the voice of STEM stakeholders within the policymaking process, 
and one of the voices that we hear from a lot are grandparents. 
Grandparents do their homework and they get this issue. I will 
get a call from a grandparent who will read me a list over the 
phone of the highest-paying college majors--petroleum 
engineering, systems engineering, actuarial science, chemical 
engineering, computer science and engineering, nuclear 
engineering. They get it. They've done their homework. They get 
the fact that STEM skills are important not just to their 
children and their grandchildren but to the society in general.
    They also get some of the ironies of this issue. So 83 
percent of millennials sleep with their smartphones but only 16 
percent of high school graduates have an interest in pursuing 
careers in science and technology, and they also get that that 
number would be a lot higher if we did a better job of getting 
women and students of color into these important fields.
    I'm going to talk about three trends that are at work in 
the policy area that have lots of implications for STEM 
education. The first is what's going on at the state level. So 
in 2015, Congress passed the Every Student Succeeds Act. It 
replaced the No Child Left Behind law, and amongst other 
things, it grants back to the states and to districts a lot of 
decision-making powers over accountability systems and how they 
spend federal resources. Twenty-five states so far have put 
forward plans under this new education law, and we just 
completed an analysis of what's in those plans, and there are 
some positive trends. So 17 of those 25 states have added 
science to their state's accountability systems. This is a huge 
decision with implications for STEM education because it drives 
resource decisions up and down the education spectrum. A 
similar number of states have added career and technical 
education indicators and measures of advanced coursework taking 
like AP subjects that are STEM related. About a quarter of 
those states have also proposed to use federal resources for 
teacher quality programs to hire STEM educators to invest in 
teacher training programs for the teachers already in the 
classroom and similar activities, and another quarter of those 
states have proposed using new federal dollars available under 
a new funding stream to support well-rounded educational 
activities to support things like STEM competitions, hands-on 
science activities and STEM-focused specialty schools.
    However, there's a catch. The Trump Administration's budget 
and the bills that have been moving through the House 
Appropriations Committee have been sending what I say are mixed 
signals about whether those programs will exist or what the 
funding levels will be for those programs, and I go into more 
detail in that in my written testimony. That's the first trend.
    The second trend is the changing nature of the economy and 
of the STEM workforce. You've highlighted this in your opening 
statements, and I know the other witnesses will say this as 
well: the economy is changing. STEM skills are becoming much 
more important to employment, and that's across the spectrum, 
so not just the rocket scientist. From the supply room to the 
boardroom, STEM skills are more important, and the biggest area 
of growth is in the so-called middle skills jobs. About half 
the jobs in the STEM arena don't require a four-year college 
degree. Those are your STEM technicians, people in advanced 
manufacturing. The challenge is, parents and teacher are kind 
of lagging in their understanding of these trends, so people's 
images of those jobs are very different than the realities that 
exist today, and the National Science Foundation, for example, 
plays a huge role in studying these trends, being able to 
translate them into how we change our practices to capture more 
people who will be interested in these fields, and give them 
the right kinds of skills.
    The third trend is the nature of learning is changing. One 
of the biggest recognitions in the STEM education community is 
that a lot of learning, important learning, is happening 
outside the classroom. It's happening online, it's happening in 
after-school programs, it's happening in museums. The kids that 
we're talking about that are not in the STEM fields, a lot of 
them will get their first experience with a mentor or a hands-
on learning experience, and if you talk to people in the STEM 
fields, those experiences are a lot of times why they chose to 
go the way that they did in terms of careers, and again, the 
National Science Foundation has an incredibly important role in 
supporting knowledge about how those pathways work and how 
people make decisions in environments outside the traditional 
classroom, so that's an incredibly important area.
    And lastly, I'll just say there's a strong bipartisan 
tradition of supporting STEM education as a policy priority. A 
lot of that tradition originated in this room, and what I would 
love to say to the next grandparent that calls us up and asks 
for help on this subject is the Federal Government has got 
their back on this issue.
    [The prepared statement of Mr. Brown follows:]
   
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. I now recognize Mr. Yongpradit for his 
testimony.

                TESTIMONY OF MR. PAT YONGPRADIT,

                CHIEF ACADEMIC OFFICER, CODE.ORG

    Mr. Yongpradit. Thank you, Ms. Comstock. That was a great 
job.
    So Chairwoman Comstock, Ranking Member Lipinski, and 
members of the Subcommittee, on behalf of Code.org, thank you 
for this opportunity to testify about the importance of 
computer science education in preparing the country's 21st 
century workforce. My name is Pat Yongpradit. I'm the Chief 
Academic Officer of Code.org. But more importantly, I'm a 
former computer science teacher, just removed from the 
classroom four years ago. And being a teacher is hard. Being a 
computer science teacher in this Nation is even harder. You are 
often the only computer science teacher in a school. If you're 
in one of the 21 states without a clear computer science 
certification pathway, you may have to be certified in a 
different subject to teach computer science, and if you're in 
one of the 40 states that don't have computer science standards 
like Mr. Lipinski already noted, you may lack any curricular 
direction and have to constantly craft resources on your own. 
The lack of support from the state level is not surprising as 
there are only a handful of states that have dedicated funding 
for computer science or have any state position that's even 
responsible for K-12 computer science. All of these challenges 
apply to mean as a teacher in Silver Spring, Maryland, but my 
school at one thing going for it. At least it had a computer 
science teacher. As reported in a survey administered by 
Gallop, the problem is that the majority of schools, 60 
percent, don't even offer computer science. That means 
thousands of students, students in your districts who want to 
learn computer science just can't.
    So the challenge before our Nation is clear: preparing 
enough computer science teachers and creating policies that 
will install and high-quality computer science experiences for 
all students.
    So much has been said about our Nation's STEM crisis, but 
when we talk about the STEM crisis in our economy and schools, 
we need to address the greatest area of concern: computing. The 
Bureau of Labor Statistics has projected that millions of new 
STEM jobs will be created between 2014 and 2024, but did you 
know that while six percent of new job growth will be in life 
sciences, where I got my undergrad degree? Over 70 percent of 
new growth will be in computing occupations. So this impact 
goes beyond STEM like Mr. Brown noted.
    Computing occupations have become the single largest sector 
of new wages in the United States overall. Almost half of all 
professionals who use advanced computing skills like coding are 
in non-STEM fields, so a 21st century doctor, lawyer or even 
banker may not need to know how to write complex code but they 
at least need to understand the inner workings of an app, 
what's a website, security and other computing basics, and this 
isn't just about future jobs. It's about the 500,000 currently 
open jobs in our Nation. These are private and public sector 
jobs such as cybersecurity.
    How do we strengthen our Nation's cyber defenses? Provide 
every American with a foundational K-12 computer science 
education. This will also build a pipeline for our Nation's 
cyber workforce.
    So our crisis is that while job demand is high, only 40 
percent of our schools teach any amount of computer science. 
Only eight percent of our STEM graduates are in computer 
science. There just aren't enough Americans prepared to meet 
the demand.
    Furthermore, the existing workforce isn't diverse. The root 
cause is our K-12 system. For example, of the students who took 
the AP computer science exam in Virginia last year, only 24 
percent were female. In Illinois, that percentage was 21 
percent.
    Code.org is a national nonprofit dedicated to expanding 
access to computer science, so we're working on this, we with 
our partners. So we're known for an annual Hour of Code, which 
many Members of Congress have engaged in. We call on students 
all over the world to engage in one hour of coding during the 
week of Computer Science Education Week. That's just the 
beginning.
    We also create free, open-source courses. We've trained 
more than 60,000 teachers nationwide in all of your states to 
teach computer science. We partnered with 120 of the largest 
school districts. We even have set up a Governor's Partnership 
for K-12 Computer Science. There are nine governors, six 
Republicans, three Democrats. Governor Hogan from Maryland just 
joined two weeks ago.
    So looking forward, there is much work to do. The majority 
of schools in the United States don't teach computer science at 
a time when Canada, Ireland, New Zealand, Romania, Malaysia, 
Japan, Sweden and the U.K.--the U.K. has been at this for three 
years already instituting nationwide computer science.
    So Code.org and the computer science community are grateful 
for the help we have here on Capitol Hill. If at any point you 
want to talk more about what's happening in your states, your 
districts around computer science, that's basically my thing. I 
go around to state departments of education and help drum up 
more work around computer science and help them with their 
goals as well.
    So thank you for this opportunity to speak and I look 
forward to hearing from our other panelists.
    [The prepared statement of Mr. Yongpradit follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you.
    And now we'll hear from Doctor----
    Dr. Alivisatos. Alivisatos.
    Chairwoman Comstock. Alivisatos. Thank you. Just like it 
reads. My sister is a Rapawano, and it reads just like that, 
so----

              TESTIMONY OF DR. A. PAUL ALIVISATOS,

              EXECUTIVE VICE CHANCELLOR & PROVOST,

                 VICE CHANCELLOR FOR RESEARCH,

                 AND PROFESSOR OF CHEMISTRY AND

                MATERIALS SCIENCE & ENGINEERING,

               UNIVERSITY OF CALIFORNIA, BERKELEY

    Dr. Alivisatos. Madam Chairperson and Members of the 
Subcommittee, thank you. I'm very grateful for this opportunity 
to comment on the challenges and opportunities we are seeing in 
higher education for computer science and related fields.
    Tragically, as was noted earlier, even as computer science 
and engineering and data science as well have permeated 
essentially every aspect of our lives and the economy, the 
percentage of women and under-represented groups majoring in 
these disciplines has at best been holding steady and in many 
cases is actually declining. Further, the quantity of students 
we are able to train can only grow significantly if we imagine 
new ways of both inspiring and teaching students.
    I want to talk about the new approaches Berkeley is taking 
to better serve our community and the Nation in this area. What 
can we do to increase the number and diversity of students who 
pursue computation and data sciences as well as other sciences 
and engineering subjects?
    First, our universities can create programs targeted to 
reverse this decrease of participation of women and minority 
students in computer science and related fields. At UC 
Berkeley, we have a whole group of programs, each of which 
differs slightly, and which we're testing to see which ones 
work the best. One is the CS Scholars program, the most recent 
cohort of 65 undergraduate scholars. It's the largest to date 
and has representation of 62 percent female students and 26 
percent under-represented minority students. Another is a 
Computer Science Capacity Award funded by Google to provide 
special discussion, tutoring and other support.
    More importantly, I would say at this point at Berkeley we 
are opening up the power of data science to all of our 
students. Two years ago, we established a course called 
Foundations of Data Science that is based on helping students 
from any major or any background to address questions that 
interest them using the powerful tools of data science. From 
linguists to chemistry and from history to economics, students 
from over 60 majors have responded. This is the fastest growing 
program in the history of Berkeley. It will serve over 1,000 
students in the fall.
    We are rapidly building on this success, adding follow-on 
classes. We just hired David Culler as our first Dean of Data 
Sciences. A new undergraduate major is in development but even 
more important, a minor in data science will be offered and 
completed by thousands of students a year with an unprecedented 
range of diversity.
    How can we build on this observation that students readily 
excel at technical subjects of great difficulty even those that 
they previously shied away from when they are personally 
engaged in asking a question they care about? At Berkeley we 
are working to give every undergraduate the opportunity to 
engage in a hands-on discovery experience. It's amazing what 
happens to students' interest once you get them out of a 
lecture hall and into a research and discovery team. With 
greater inspiration and understanding of their field, we expect 
better student engagement and retention in their chosen majors 
including computer science.
    To offer personal discovery experiences to thousands more 
undergraduates, potentially even to all 27,000 who are at 
Berkley at any one time, we will engage our talented graduate 
students and postdoctoral scholars as mentors. Discovery 
experiences hold promise to bring more talent to the hard 
problems our society faces, and to introduce a new generation 
of very well-prepared students into vital sectors of our 
economy. As we are now entering a new phase of promoting these 
discovery experiences in a systematic way, we are discovering 
that there are many paths for us to do this and that the data 
science major will be a crucial piece of achieving that.
    I hope that any of you that are in the Bay area will take 
some time to come and visit Berkeley to see what's going on and 
to meet some of our students because it's a phenomenal 
transformation that's going on.
    Thank you.
    [The prepared statement of Dr. Alivisatos follows:]
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Comstock. Thank you very much.
    Now we'll hear from Ms. Mooney.

                  STATEMENT OF MS. DEE MOONEY,

                      EXECUTIVE DIRECTOR,

                  MICRON TECHNOLOGY FOUNDATION

    Ms. Mooney. Thank you, Chairwoman Comstock, Ranking Member 
Johnson and Ranking Member Lipinski, and distinguished members 
of the Subcommittee. Thanks for the opportunity to be here 
today.
    My name is Dee Mooney, and I work for Micron Technology, 
specifically, its foundation. Micron is a leading worldwide 
memory and storage solutions company. Our memory technician--
our memory technology is in the things you use every day form 
smartphones to laptops to our cars. This technology is 
increasingly critical given the growth of data and the need to 
access, store and manage that information.
    Our company was started by four visionaries in the basement 
of a dental office in Boise, Idaho, reflecting the American 
ideas of ingenuity, grit and innovation. Today we're nearly 39 
years, 18 countries, 26,000 patents and more than 30,000 people 
strong.
    This level of innovation requires a robust and talented 
workforce, especially in the STEM fields. We believe STEM 
education is critical to cultivating tomorrow's technology 
leaders, not just for our team but to advance our industry and 
the economy at large.
    While Micron is a semiconductor manufacturer, we rely on 
skilled programs to develop product firmware, build software 
for several tools throughout our manufacturing operations. 
Depending on the role, you workforce needs range from 
technicians to Ph.D.'s. Unfortunately, we regularly see a lack 
of available talent to fill these skills.
    The Micron Foundation was created by Micron nearly 20 years 
ago in part to inspire the next generation of innovators with a 
focus on STEM. We have given away $88 million to improve access 
to STEM education and invest in local communities. We are--as 
Chairman Comstock mentioned, we are located in Manassas, 
Virginia, and we do quite a few programs there with supporting 
robotics, our public schools for engineering camps, teacher 
grants. We bring the Micron bus there. We also are very--I'd 
like to highlight a program that we partner with at the 
Northern Virginia Community College called Systemic Solutions. 
This pipeline development program engages students in 
elementary school and inspires them to continue to pursue STEM 
throughout their school and career experience.
    In Idaho, the story is similar where we support educators 
and students through grants and outreach. This includes hosting 
a free hands-on science camp for junior high students to 
explore robotics, virtual reality, 3D printing, and the latest 
technology developments. We recently expanded this program to 
California this year, and we are looking to expand it to other 
communities. We also take these lessons a step further into 
shaping future careers with our Girls Going Tech and Women in 
Technical Career speaker series.
    Computer science accounts for many of the fastest-growing 
occupation, and we feel that too. During the 2015 Idaho 
legislative session, a visionary group of stakeholders helped 
to create the Idaho STEM Action Center to develop unique grant 
training, professional development and student opportunities. 
This helped pave the way for a circuit initiative passed by our 
state legislature last year with the intent to help clarify 
student learning objectives within computer science and help 
guide districts and educators that choose to complement 
computer science. It helps them have a roadmap so they know how 
to implement that in their schools.
    To us, this represents the type of collaboration and 
initiative needed to keep America on pace and beyond in a very 
global competitive environment. This starts by supporting an 
educated workforce that can compete tomorrow and well into the 
future.
    I look forward to the discussion today and learning from 
the other panelists, and again, thank you for having me.
    [The prepared statement of Ms. Mooney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you, and thank you for all your 
engagement on these issues. I know you mentioned grandparents' 
interest and the Children's Science Center that's in Fairfax, 
Micron and many other companies in the area of support. I 
remember being sort of a kickoff for it where Microsoft gave a 
large grant for them also, and they are building a longer-term 
museum, but right now they're in one of our local malls, and 
it's my granddaughter's favorite place to play. Just about any 
time you mention it, she's game to get there. She's 2-1/2.
    So the pipeline starts young and you are all an important 
part there. I think there's also Family Science. I'm just going 
to plug all these things because I think this is something we 
all need to be engaged in and involved in, and I appreciate 
your helping with that.
    So Ms. Mooney, in your testimony you talk about working 
with the local public schools and universities to help engage 
students in STEM, and I'd add preschool to that because that's 
certainly what the Children's Science Centers and others do. 
Can you speak a little bit about all this? And all of you maybe 
kind of--like what kind of online things can we all be 
promoting.
    And I know Mr. Yongpradit, you talked about some of the 
classes that are available I think that are sort of with the 
internet, the democratization of education. While we're waiting 
to get all these things into the classroom, what can we be 
highlighting for people? Because the great thing, you know, in 
organizations like Women Who Code that we saw yesterday, I can 
assure you are in that group, there was at least about 100 
young women there. It was very diverse. You know, this was a 
summer-long program and it was really exciting to see the real 
diversity there and how aggressive they have been, and again, a 
lot of our local companies are supporting that. But where can 
we plug people into this who may not find out about these 
programs or how can we make sure we're doing that, if you could 
all address that?
    I'll start with Ms. Mooney.
    Ms. Mooney. Thank you, Chairman Comstock. We are always 
looking for those opportunities. Often our programs that start 
in junior high and high school, a lot of times those students 
are on their way, so we look for opportunities back at the 
beginning of education where we can get them excited, and this 
would be a good time to talk about our partnership with the 
STEM Bus. The STEM Bus rolls into a school and we try to target 
low-income schools, Title I schools that might not have a lot 
of resources at their fingertips, and the bus rolls in and it's 
a 60-foot, big bus. It's decorated with bright colors and it 
rolls in. There's an assembly at the school where all the kids 
come in and there's drones flying around, there's music. It 
gets a lot of excitement. And then throughout the day, students 
are able to come outside into the bus, which has been 
completely repurposed and inside there's lots of fun things. 
There's 3D printing, there's virtual reality, lots of hands-on 
activities, and we talk about what really sparks their 
interest. That's kind of the exciting thing that happens. Then 
we work with those teachers to make sure that they can continue 
that path to keep inspiring those students.
    Chairwoman Comstock. Yes?
    Mr. Yongpradit. Mrs. Comstock, that was a great question 
about what online experiences can be plugged so that students 
who don't have access in school and still have some type of 
experience. There are a number of online opportunities. At 
Code.org, we created a number of blended opportunities. They're 
both online and in person. The Hour of Code itself is an online 
experience. They're tutorials that students can do, and that 
can be done outside of the Computer Science Education Week, so 
that was the Hour of Code, and many Members of Congress have 
actually participated in an Hour of Code. There are for-profits 
like Code HS and Code Academy. Universities like Berkeley are 
offering free courses through providers like EdEx and other 
providers like Forsair and Udacity are offering free colleges 
as well.
    But here's the thing. Our research at the K-8 level shows 
that when there's a teacher in a classroom teaching these 
students, the classrooms are more diverse and the students go 
further, so that's why we put our money in the classroom and in 
school, making sure that these students in school can have that 
experience and that all students can have that experience, so 
that they don't have to go to an online provider outside the 
school to get that fundamental computer science experience.
    Chairwoman Comstock. Thank you.
    Mr. Brown?
    Mr. Brown. One thing I'd add to this is, so 4 years ago we 
had 500 affiliate organizations that were part of our 
Coalition. Now we have a little more than 700. And when we get 
inquiries from people saying what do I do in my community, a 
lot of times what we will want to do is connect them with a 
growing network of STEM organizations that are in their local 
communities. Mayors have STEM councils now. There are regional 
STEM organizations. A lot of states have these entities. There 
are places to turn now in your local community to connect you 
with what's actually going on out there because these 
activities are blossoming across the country as the states 
start to prioritize these, but the answer to this is oftentimes 
a really local answer, figuring out who in your community is 
taking this on and connected people who are trying to seek help 
with those connector folks.
    Chairwoman Comstock. And I know, having served in the state 
house--you note a number of the schools that don't have it as 
mandatory. There's always a challenge when you're trying to add 
another class. You get a lot of pushback from the schools. It 
was before I had gotten in the state house but there had been a 
mandate for financial literacy classes, and they then delayed 
the implementation because it was very difficult for some of 
the schools to get that in there, and then it turned out. But 
there was an online class that you could help because some 
kinds wanted to be in computer science or more advanced physics 
than have to take a class in financial literacy for someone who 
already had that. So I think there is a need for some 
innovation here so that if you have a kid who's online, you 
know, doing things, how do you incorporate that? Because I know 
there is resistance on that state level but we need to make 
sure it is available, and I know in my district, the young man 
who won our Congressional app challenge that we have here every 
year did not have computer science at his school. We want to 
make sure they do have that, so that's something we're going to 
work with them on. But he was teaching an after-school class to 
his colleagues. He had started this himself, a brilliant young 
man who had started in elementary school, but as you said, Mr. 
Yongpradit, we've got to make sure everyone has access to that, 
so what has been your experience in kind of breaking through 
that difficulty not wanting another mandate?
    Mr. Yongpradit. So ultimately, schools need to be 
responsive to where our culture is heading, and I look at that 
scripture up there in the Bible where there is no vision, that 
people perish, and that's actually already happening right now 
in all these schools where they don't offer computer science, 
and so first off----
    Chairwoman Comstock. Get it offered even if it's not 
mandated that you take it.
    Mr. Yongpradit. Yes, it's just an issue of priorities 
sometimes. I mean, there's so many electives that high schools 
offer. You know, sometimes things do need to go and change and 
evolve. So we've seen that schools all over the country, 
districts, principals, administrators, they all figure out new 
and exciting ways to fit computer science into the schedule. So 
in fact, it's not even a theoretical discussion. It's already 
happening en masse like San Francisco Unified where Berkeley is 
at. They're instituting computer science in K-12, every single 
grade, so somehow they're fitting it in into a school district 
that's about 56,000 students, and so whether that's integrating 
it into another subject or offering it as a rotation at an 
elementary school level with music and art, schools are 
figuring out a way.
    Chairwoman Comstock. Thank you, and thank you for your 
work, all of you.
    Now I yield to Mr. Lipinski.
    Mr. Lipinski. Thank you. I could sit here and ask questions 
all day because I have so many, so if I can quickly get answers 
so I can get to at least a few.
    Mr. Brown, you had talked about specifically middle skill 
jobs where there's great need, an unfulfilled need. As I was 
thinking about this hearing, you know, the title is ``STEM and 
Computer Science Education: Preparing the 21st Century 
Workforce,'' I want to know what types of skills are we talking 
about? Because we're talking about computers, computer science 
majors in college as opposed to, you know, skills learned in 
grades K-8. What are the skills that are necessary for the jobs 
that are out there? Where are we really missing--you know, 
where is the workforce not prepared? What types of jobs are 
these? Can we have some sense of how many are we missing at 
different levels?
    Mr. Brown. Sure. This is a really complicated challenge, 
this middle skill jobs question. So a good example of a new 
middle skill job where workers can do really good and not need 
a college degree is the auto mechanic. So we all have this 
analogy in our minds of I can't fix my care anymore because it 
has to be plugged into a computer at the dealer, right? Like 
that's the common anecdote. But if you look at what an auto 
mechanic's job is now versus, say, 30 years ago, an auto 
mechanic is now somebody who has to use a computerized 
interface to figure out what's wrong with the car, and then 
they go fix it, and that's a very different image than most 
parents have of what an auto mechanic does or what somebody 
else that might be interested in that profession is, and for a 
long time the people who would go into those jobs were not 
treated like the STEM crowd, right? There's a societal view 
that those jobs are okay but they're not for my kids if my kids 
are going to do well in the world, and that's frankly just a 
wrong view because if you're really good at being an auto 
mechanic and you work in a high-end car dealership, you might 
make more money in your first or second year than a college 
degree person who is maybe in the middle of their class with an 
engineering degree. I mean, so that's a misconception that's 
not there. So there's a whole track of students, and a lot of 
these students are in the CT or the vocational-technical track 
that are getting trained for these jobs but a lot of times 
that's not where the best educators are in the school, that's 
not where the emphasis of the states or the districts STEM 
program is.
    The image is, when you do person-on-the-street polling and 
you ask people about STEM careers, they still identify the STEM 
career with the rocket scientist, the Ph.D. They don't have 
images of these middle skill jobs to draw from, and this--so to 
get back to what those skills are, they're problem-solving 
skills. They're problem-solving skills that use technology, and 
the STEM field--there's lots of way to teach problem-solving. 
It just turns out that STEM is probably the least worst way to 
do that, right? You can teach people how to solve problem 
without being a scientist, but learning the scientific method 
and learning about data and evidence are the best ways to do 
that within the school system.
    And so getting back to the point about what we really need 
to do is, we need to make sure the high-quality programs are 
also in those middle skill tracks and that we're not just 
focusing resources on the future rocket scientists, the people 
that sort of fit the description of who you expect to see when 
you talk about a STEM job.
    Mr. Lipinski. Let me move on to Dr. Alivisatos. What can we 
do to--there's a great shortage of teachers. Any 
recommendations you have of what can be done so we can have 
more computer science or other similarly related fields get 
people in to be teaching at the college level?
    Dr. Alivisatos. Well, both high school and college. You 
know, we have an enormous talent pool of graduate students and 
also undergraduates who are really learning computer science 
and STEM fields and who spend--spontaneously because it's their 
love--they spend time, for example, graduate student mentoring 
undergraduates or high school students, and likewise college 
students doing the same thing. So those people are showing that 
they have a deep desire to do these things. Many of them could 
use much more help learning how to be mentors early as part of 
their education. So if they're in a STEM discipline, actually 
having training on how to be a mentor, which is a vital part of 
actually being part of a science team or an engineering team, 
so teaching those skills in a systematic way to large numbers 
will open those careers to them and help them to do better.
    But as you know, there are also a lot of structural reasons 
why the teaching careers aren't always as attractive as they 
could be in some of our areas, and some of those are controlled 
by local policies, but it's clearly a huge problem to make it 
more attractive to people.
    Mr. Lipinski. Can we get--if the Chair will allow, what 
about programs to try to get people who are out and working to 
come into a university and teach or to the high school 
classroom and teach?
    Dr. Alivisatos. So in our discovery experience program that 
we're planning, one way--we're finding many--let's say in our 
case, we have 27,000 students. We want them all to have a 
discovery experience. We need to build a network for that. So 
for example, a postdoctoral scholar or a graduate student would 
mentor. But even if we do that, there's still more personal 
mentorship that's needed, so we're inviting in all of our 
colleagues from the Bay area technology community and also from 
many local businesses and even from community organizations to 
come in and mentor our students, and also, we're putting in a 
requirement that every student, as they mature through the 
program, they themselves spend a certain amount of time 
mentoring in a local high school, and so we kind of see to 
scale this, you need to have a kind of network of people at 
different levels, and each time you've gone up to a next level, 
you should be reaching a hand down to the earlier stage to help 
them because that helps the numbers to work well for such a 
complicated large number of people problem.
    Mr. Yongpradit. So Mr. Lipinski, I'd like to add that 
there's actually a great model program in the United States 
right now sponsored by Microsoft. It's called TEALS. I think 
it's Technology Education and Literacy in Schools, and 
basically what happens is, they take engineers from a number of 
companies, not just Microsoft, and these engineers go in to the 
classroom, sometimes three to five days a week in the morning 
right before they go to work and they actually teach a computer 
science class, and so this is in schools where they just can't 
find a teacher to teach computer science, and this is happening 
in, I believe, hundreds of schools nationwide in several dozen 
districts, and so that's a model program that I'd like to call 
out.
    Mr. Lipinski. Thank you very much. I yield back.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Marshall.
    Mr. Marshall. Thank you, Chairwoman.
    Mr. Yongpradit, I missed your number. How many computer 
science jobs are open across the country now approximately?
    Mr. Yongpradit. So 500,000 open computing jobs, and those 
include jobs that require a four-year degree, as well as the 
middle schools jobs that--middle-skills jobs that Mr. Brown 
mentioned.
    Mr. Marshall. Okay. I want you all to write down these 
numbers, see if you come up with the same conclusion I come up 
with. I just met with Dr. Ben Carson. He told me there's six 
million skilled jobs open in this country right now. We're at a 
16-year low for unemployment across the country. My State of 
Kansas has 20,000 open jobs. I think I read that Mrs. Comstock 
has 30,000 open computer jobs in her State. You just told us we 
have 500,000 open jobs across the country in computer science.
    So, here's the counterintuitive things I'm learning. I'm a 
freshman up here. A half-million people have given up looking 
for a job. There are districts in our country with unemployment 
of 17 to 20 percent. And in those districts, 25 percent of 
people are on Medicaid assistance, and 50 percent of them are 
on food assistance. My theory--see if you disagree with me--is 
we don't have a job problem; we have a job skills problem in 
this country. Everywhere I go in my town halls, whether it's 
the construction industry or skills set, we don't have a 
skilled workforce anymore.
    What's the disconnect? What are we doing to motivate people 
to not work or to not get that skill set to work? What has 
happened in our culture that we don't motivate people to get 
the proper skill set? I think this is a cultural problem.
    Mr. Yongpradit, you've got a comment what's happened to our 
culture?
    Mr. Yongpradit. Yes, I can talk about it just from my 
experience teaching. So, at some point we had this definition 
of digital literacy that was let's just learn how to use a 
computer, like here's a mouse, here's a keyboard, let's learn 
how to type and create presentations, right? And that was the 
thing in the '80s and '90s. Lots of us learned how to use 
computers in a course like that.
    But what those courses missed is how to dig deeper and how 
to actually program the computer, how to create technologies of 
your own. And so, because of that, we have this huge gap 
between all these open computing jobs and a workforce that just 
isn't skilled to access those types of jobs. We have people who 
may be able to use a welding machine, but they're not able to 
program a welding machine.
    So, with this level of automation that we're seeing in 
manufacturing jobs these days, we see people who are being 
automated out. Now, here's the thing. They can be automated in 
if they learn how to now program those machines. And in the 
same way we have a great opportunity ahead of us with the 
transportation industry with all this automation of cars. I 
mean, folks, in 15 years, I mean, there'll be a lot of kids who 
don't even think about driving. It's just nonsense to them. 
They'll just, you know, call up a car to drive----
    Mr. Marshall. I need to move on.
    Mr. Yongpradit. --for them.
    Mr. Marshall. So we have some incredible community colleges 
and technical colleges in my district, and I think that they're 
poised to probably make the quickest adjustments.
    Mr. Brown, can you give some comments? Are our community 
colleges responding? What are they teaching? What are they 
doing?
    Mr. Brown. Well, I think you used a term that's super 
important here, which is responsiveness. So much of this 
challenge--we have low unemployment, but we have also low 
participation in the workforce, right? The underemployment 
number is probably 20 percent of the population----
    Mr. Marshall. It's scary.
    Mr. Brown. --more, right? Part of that challenge is because 
it's too hard to transition from one set of skills to a pretty 
similar related set of skills. I'll give you an example of a 
problem if we could solve that would get at this that community 
colleges probably play a role, and that's transitioning 
military veterans.
    Mr. Marshall. Yes, sir.
    Mr. Brown. So, there's 100,000 people discharged from the 
military every year. About 60 percent of them have STEM skills, 
but it's really hard for a combat medic or electrical 
technician to get a commercial credential because we can't 
manage that skills gap problem just for a highly trained 
population that we know their skills, and yet they don't line 
up with the educational institutions.
    And so community colleges have a lot more flexibility than 
some other institutions. They're dealing with a lot more 
diverse population that has a lot of different skills. If we 
could manage that transition alone of getting more of those 
60,000 military veterans into STEM careers, it would help us 
tell the metal technician in Indianapolis who worked for 
Carrier a better way to get a job.
    Mr. Marshall. Are you seeing--who's doing it right? Who's 
the most successful place you've seen doing this?
    Mr. Brown. You know, the trend that I think speaks most to 
the innovation is the fact that companies are doing their own 
training for high school students----
    Mr. Marshall. They sure are, yes.
    Mr. Brown. --now, right? I mean, that's the commercial 
motive. That's capitalism at work. It's probably not the ideal 
solution, but that's where a lot of companies are is they're 
doing this training in-house and skipping the education system 
altogether, which says we have a problem.
    Mr. Marshall. Yes, sir. Thank you.
    Chairwoman Comstock. Thank you. And you're exactly right. 
I've seen that just in visiting whether it's a manufacturing 
plant--the businesses bring people in and train them on that 
equipment for that very reason.
    But I would also mention the high schools--I think you're 
exactly right. The community colleges are a great place to--but 
our high schools are trying to do more of that, and I think 
making sure that they are faster and really adapt quickly like 
that and then move it on down into junior highs and then having 
these kids get some work experience, too, and being exposed to 
all that.
    Mr. Yongpradit. Well, and can I just--I want to make sure 
this is a clear point. Companies are doing it because the 
education system can't keep up.
    Chairwoman Comstock. Right. Yes.
    Mr. Yongpradit. That's not to say we should be giving up on 
fixing our educational institutions. The high schools that 
people really value are the ones that are preparing kids for 
specific career paths. That's what the grandparents are asking 
for----
    Chairwoman Comstock. Yes.
    Mr. Yongpradit. --when they call up.
    Chairwoman Comstock. Great. Okay. I now--oh, Mrs. Johnson 
is not here. We have Ms. Esty now recognized for five minutes.
    Ms. Esty. I want to thank the Ranking Member and the 
Chairwoman for this important topic we're discussing today. And 
actually, Mr. Brown, I was going to start with lower grades in 
education, but as a member of the Veterans Committee and 
working a lot on this issue, I'd like to start with you about 
what we can better do because it is a crime actually that we 
are not providing our veterans with a better ability to 
transition to civilian workforce. And you're exactly right; 
they've got the skills.
    But again, do you think stackable credentials, is this 
something we should be working within the VA to try to do this? 
How do you--or transition from DOD? Because some of us have 
been looking at elements. Can we do a better job of 
translating? What are those Defense Department skill sets that 
they have, and how can we translate? And if you have 
suggestions for us about how we can be helpful, I can tell you 
there's huge commitment on this committee and across Congress 
to do better for our veterans.
    And you just think about something like cybersecurity. We 
have skill sets there that are going to waste, and people are 
looking for jobs, so we are passionate about filling that gap 
and putting veterans to work. So, thoughts any of you have on 
what we can do on that would be welcome.
    Mr. Brown. Well, so let me first say thank you for your 
service on the Veterans Committee. And the Veterans Committee 
in the House just passed a GI bill reform, right? And one of 
the things that's really important sort of under the radar is 
that that bill contains a provision to allow veterans who are 
studying career fields that take more than a certain number of 
credits so that they're not basically aged out of their GI bill 
benefits. And those are the kinds of adjustments in our system 
we have to make to meet the unique requirements. It has 
laboratories. It takes longer.
    The transition issue for veterans, the reason why I use it 
as a litmus test for this problem is part of the reason that's 
not happening as--it brings in all these factors we're talking 
about. So veteran nurses have to meet state certificate 
requirements in nursing, and I think there's a lot we could do 
to make those more portable, stackable, you know, things of 
that nature to make skill--because employers are looking at 
cross-state-lines hiring practices. There are big regional 
disparities on this issue, and so those are the types of things 
we have to take on and reform those boundaries between--it's 
interagency, intergovernmental type of things that are going to 
help us solve that problem.
    It's not that the innovation's not there to do that kind of 
training. I mean, universities and community colleges can do 
it, but it's the rules of what constitutes a licensed person in 
a lot of those professions that are some of the barriers.
    Ms. Esty. No, I think you're right. There's siloing and 
there's guild mentality, and I would note a lot of us here have 
worked on diversity issues for women, girls, people of color. 
The military is much more diverse than it used to be, and so 
one of the ways we could rapidly change the face of what 
somebody who's in STEM looks like is to really aggressively 
look to place people with service in the military into the STEM 
fields. And I think it's under-attended-to, and I'd love to 
follow up with all of you on thoughts about how we can do that.
    And, yes, we actually have a special provision on STEM 
skills in the GI bill, and we've made it lifelong benefits to 
address this issue about needing to reskill over years. So, 
that deals with in part the immediate problem of like how do we 
fill these midlevel skills right away.
    I'd like to have you opine a little bit and talk about what 
you think we can do in elementary level. I know several of my 
colleagues here are working on legislation built off of things 
we've seen particularly for girls. If they aren't engaged by 
eighth grade, it doesn't matter what you have in high school; 
they've already self-selected out of these fields. So, thoughts 
about what we can do on that? And, again, Mr. Yongpradit, that 
could be something we should be--not just high school students 
but in elementary going in and talking about science and 
computer fields. Thanks.
    Mr. Yongpradit. We've been active in this area, probably 
the most active of all the K-12 areas that we work in, 
elementary, middle, and high school. So, I mentioned that we've 
trained 60,000-plus teachers over the last 3-1/2 years. The 
majority of that I'd actually estimate probably around 52,000 
of that is at the K-5 level. And so what we're doing is we're 
taking the media specialists, the computer lab teacher, even 
the classroom-level teacher, and we're teaching them how to 
integrate computer science into their math lesson, their 
science lesson, or even to offer it as an elective alongside 
art, music, P.E. as a special or an elective in a rotation.
    And you know what's wonderful about that? So, I know that a 
number of the members of the subcommittee are sponsoring the 
Code Like a Girl Act, which is wonderful. Elementary school 
teachers are so hungry for computer science. You would think 
that it'd be hard to like convince them to like, you know, 
bring it into their curriculum because they have so much going 
on already, which they do, but they are so hungry and they are 
so willing.
    Ms. Esty. Great, thank you. I see I'm out of my time, and I 
yield back. Thank you all very much.
    Chairwoman Comstock. And I now recognize Mr. Webster.
    Mr. Webster. Thank you, Madam Chair.
    Yes, I was thinking about that K-5 program. I decided when 
I was in fourth grade I wanted to be an engineer and ended up 
doing that, actually planned out where I was going to go to 
school, started, then started praying.
    So, my question is kind of around that. First of all, I 
know there is a need in everyday life to understand something 
about STEM. A couple weeks ago, my wife's washing machine 
broke, and I got a little manual on it off the internet. And 
it's self-diagnosing, so I pushed a couple buttons and up pops 
a binary number, and it was 12. And so I looked on this little 
chart, 12, bad motor control. Sure enough, that's what was 
wrong with it, so even in the household, it's good to know a 
little bit about STEM.
    But we have spent a lot of money locally--I know in our 
area--along with K-12 funding and so forth to try to draw more 
people into STEM. Does that need any more coordination or is it 
working? Is there any empirical data that would say this works? 
We're really getting a lot more people, not necessarily from 
one particular area, just is it working? Anybody?
    Ms. Mooney. Chairwoman Comstock, Mr. Webster, thank you for 
your question. And you are exactly right. There is a lot of not 
only our foundation but a lot of company foundations, 
nonprofits that are working on this issue. We tend to focus 
very much on the schools, on the students, on the teachers, and 
that's fantastic to help support them, but we've noticed even 
with our grants that there tends to not be a parent component, 
and if we can educate the parents to the importance of these 
skills, help them to understand how to encourage their students 
to stay with it, that is an element that can definitely help.
    We've also had focus groups where parents have come in and 
they've talked to us and they've said things like, ``I wasn't 
good at math' you probably won't be either,'' and that really 
is very damaging, and that can hinder a student's progress in 
that area. So, we're trying to do a little bit more--in fact, 
actually a lot more--around the importance of parents and 
bringing them into the equation.
    Mr. Webster. So is that universal or is it in its infancy 
or----
    Ms. Mooney. I would say without programs and even the grant 
requests that come across our desk for us to fund, that element 
seems to be missing, so we're trying to encourage a little bit 
more of that. I'm sure there's lots of other areas that we 
could certainly be focusing on, but that is--that's something 
that we find missing quite a bit.
    Dr. Alivisatos. I'd just like----
    Mr. Webster. Okay. Yes, go ahead.
    Dr. Alivisatos. If I could just say a quick--I mean, I 
think this comment about when a young person, if they're in--
often elementary school but also very much in middle school, 
and then it happens all the way through, when you get this kind 
of experience where somebody will say, you know, I wasn't good 
in STEM, you may not be, or math isn't for me, that kind of 
thing, it really closes things off for people in a way that 
then they internalize. And that is a cultural phenomenon that 
really hurts.
    And so to your point that inside the home matters 
enormously but also inside the schools. Giving experiences 
where people can actually have something that they touch 
outside of just a test that's going to be graded but something 
where they can actually have a success has an enormous effect 
on people, and I think that many of the curricula are really 
evolving that way now so that people, in addition to their 
classroom experience, have an experience outside of the 
classroom where they experience a success, and that helps them 
to come back in. And that has to happen all through the system.
    Mr. Webster. Would directed scholarships, maybe enhanced 
scholarships for STEM, help? Yes, go ahead.
    Mr. Yongpradit. Mr. Webster, I'll say that the number-one 
most effective way to spend money in computer science to 
actually increase the number of computer science offerings is 
in-service professional development. That means professional 
development for teachers who are already in the classroom and 
teaching them how to just offer computer science as an 
elective, as an extra course, or what have you. And it's 
already proven. A.P. computer science principles, which Ms. 
Johnson mentioned, is the largest A.P. launch of any computer 
science course--of any A.P. course ever. And so that was driven 
by in-service professional development for teachers.
    Mr. Brown. Can I just add one more----
    Mr. Webster. Well, I'm out of time. Chair?
    Chairwoman Comstock. Oh, if you--Mr. Brown, if you'd like 
to----
    Mr. Brown. So, two things I would add to that. I would 
definitely concur that the high-quality teacher component is--
that's--the data show us that high-quality teachers and high-
quality experiences are the biggest impact on students. But I 
would like to say something about the scholarship question you 
asked. One of our experiences over the last 15 years going back 
to the America COMPETES Act and different attempts to try and 
incentivize students is scholarships are less effective than 
people think because the financial incentives alone of making 
it easier for a student to go to college will not necessarily 
overcome their lack of preparation for success in another STEM-
oriented career. So, it's their degree of preparation that's 
more of a selector for whether they can succeed with a 
scholarship or with some kind of financial incentive than just 
doubling the amount of scholarship money that's out there.
    Mr. Webster. Okay. Thank you. Thank you.
    Chairwoman Comstock. Thank you. And I think you're so right 
on the teacher continuing to upgrade that because, I mean, 
that's why sometimes bringing the outside people in, too, helps 
because they're in the real world. Their skills are upgraded. 
My husband was teaching computer science in the early '80s. 
Then, he was a principal. Now, he has to go back, and there's a 
lot of upgrading to do there, so anything we can do to continue 
to upgrade those skills.
    So, I now recognize Ms. Rosen for five minutes.
    Ms. Rosen. Thank you. I'd like to thank the Chairwoman, 
Ranking Member Mr. Lipinski, and all of our guests. And what I 
want to say, first of all, is I am a girl who codes, who made 
it to Congress, who started her career as a computer programmer 
in the 1970s with the card deck, learning BASIC and COBOL and 
Fortran and assembler, and I know what an exciting career it 
is, how creative it is, and how much I learned, and I use those 
skills every single day here. So I applaud what each and every 
one of you are doing. There weren't very many of us doing it in 
the '70s. There still aren't enough. It comes down to 
inspiration, education, and teaching, so I want to thank you 
all for that. I'm a proud sponsor of the Code Like a Girl Act, 
and today, we're going to introduce with Rep. Knight from this 
committee the Building Blocks of STEM Act, which is going to 
put some money into that early childhood education to let kids 
know that it is creative and exciting as you want to make it to 
have a career in technology.
    So, to that end, I really want to ask you, what else can we 
do in Congress to help make this a reality, helping with 
veterans in retraining, helping with other training programs, 
teaching our teachers? So, how can I be helpful in Congress to 
make these kinds of things happen to fill these jobs and let 
people know that they're capable of doing it?
    Mr. Brown. I'll take a first crack at that. First off, I 
think you've definitely got my award for the coolest bill name 
I've heard, so thank you for that.
    Ms. Rosen. I'm no longer a girl, but I feel I code like 
that.
    Mr. Brown. One of the things I would point to that I think 
Congress can do is make sure that we're delivering on the 
promises we've made to schools to fund the programs that do in 
fact impact our lives. NSF does a lot of work in this area. 
There have been attempts in the past to narrow NSF's focus to 
just undergraduate or just K-12 or--I think NSF has to do it 
all within the realm of STEM learning because we're learning in 
lots of different ways.
    To your point about elementary education, one of the things 
that we saw under No Child Left Behind is a narrowing of the 
curriculum to math and reading, and so I highlighted the fact 
that States are adding science to their accountability systems 
because the data show really clearly that impacted elementary 
science learning the most. And one of the curious things I 
see--I've seen this as a parent and it's in the data, too, is 
that elementary STEM night brings in everyone--
    Ms. Rosen. Yes.
    Mr. Brown. --right, the girls, the boys, all the different 
students. In middle school, there are a lot less girls.
    Ms. Rosen. Yes.
    Mr. Brown. And in high school, it's all dudes, right? So, 
there's definitely a phenomenon that's going on there that it's 
good for Congress to be aware of it because it's not just this 
Committee, it's the Education Committee--
    Ms. Rosen. Right.
    Mr. Brown. --it's all the other things, but you've got to 
work together to have a solution that addresses all of these 
things across all of those different policy mechanisms.
    Mr. Yongpradit. Let's talk about two things that a lot of 
the members here have already done and then build on that. So, 
one thing is the 2015 STEM Education Act, and that included 
computer science as part of the Federal definition of computer 
science. In the State of Maryland, higher ed institutions heard 
about that and realized, gosh, we offer a STEM endorsement at 
our university. We probably need to include some computer 
science in it if computer science is now part of the definition 
of STEM. So, they actually did that on their own because of 
that act, so that's one positive effect from that act.
    Adding computer science to the list of well-rounded 
education subjects in ESSA, what that has done and it continues 
to do is increase the priority of computer science at the state 
level, and so even States like Connecticut, Ms. Esty isn't here 
anymore, but Connecticut has included computer science as part 
of their ESSA plan. That wouldn't have happened if--
    Ms. Rosen. Right.
    Mr. Yongpradit. --computer science wasn't included in ESSA.
    So, I think the focus of computer science in STEM and 
providing guidance around computer science in STEM funding is a 
constant thing that Congress can continue to do.
    Ms. Rosen. Go ahead, Ms. Mooney. Thank you.
    Ms. Mooney. Thank you, Chairman Comstock.
    Ms. Rosen, thank you for your inspiration words to start 
off with. That's great that you're a girl who codes.
    Anything that you can do to continue to incentivize 
teachers to teach computer science and teach STEM. We have a 
program that we're working on at our local university where we 
take freshmen that are majoring in computer science or 
engineering and partner them with a teaching certificate so 
that when they graduate, they not only will have that 
engineering or computer science degree, but they'll also be 
able to teach. If there would be an incentive--I know sometimes 
the funding when they come out isn't equitable--but if they 
have an incentive to go into the classroom with that, we think 
that is fantastic. And any time that we can get somebody that--
especially for girls--if we can get a female teacher in the 
front of the room, somebody that they can aspire to, that looks 
like them, any of those type of programs would be very helpful.
    Ms. Rosen. Thank you. And I'd like to see that tech bus----
    Ms. Mooney. Yes.
    Ms. Rosen. --that tech-mobile--
    Ms. Mooney. Yes.
    Ms. Rosen. --in every community in America. I think that 
would be great. Thank you.
    I yield back.
    Chairwoman Comstock. Thank you.
    And I now recognize Mr. Hultgren for five minutes.
    Mr. Hultgren. Thank you, Chairwoman.
    Thank you all so much, appreciate your work, appreciate you 
being here. This is such an important subject and something I'm 
passionate about. I think all of us are, but privileged to join 
with our Ranking Member of the Subcommittee. Dan Lipinski is 
Co-Chair of our STEM Caucus here in Congress, and just 
continuing to be talking about it--it really is something that 
brings us together. There's way too many things that divide us 
up here, but this is one of those things that absolutely brings 
us together of what can we do to prepare the next generation, 
our best and brightest to go into STEM fields, realizing that 
so much of our nation is dependent on the next explorers and 
discoverers and researchers who are going to have incredible 
breakthroughs.
    I just had the privilege a couple of weeks ago to have a 
graduation of something that we started called our STEM 
scholars. In the 14th Congressional District it was 19 high 
schoolers, ten young women, nine young men, where it was a 
yearlong program. I met with them once a month, and we would go 
to different places around the district that I represent, seven 
counties just west of Chicago, north of Chicago, learning about 
ways for them to apply STEM education in the workforce. So, we 
went to Fermilab, a national lab in my district. We went to the 
Cain Tubular, which does tube bending for exhaust systems on 
rocket engines that's in St. Charles, Illinois. We went to 
Flavors of North America, FONA, which does chemistry of taste 
and smell in our foods, and many, many other things, Digital 
Design Manufacturing Institute, downtown Chicago, phenomenal. I 
mean, it was great. I learned a lot. I think the high schoolers 
learned a lot.
    But we'd spend maybe an hour-and-a-half learning about how 
they could apply this, and then we'd spend maybe an hour for me 
to hear from them of what has worked in their lives, what 
sparked that interest, what sparked that passion, and how can 
we take that and share it with others.
    The other thing we saw every place we went is the need for 
computer programming, that the jobs are there. Dr. Marshall, 
who was here a little bit earlier, talked about that, you know, 
I hear it so often of how we need more programmers, and it's 
almost like this guaranteed career path if someone is willing 
to dedicate themselves to doing that.
    I want to just get your thoughts. What I was hearing from 
some of my STEM scholars and others is that they've had to kind 
of go outside of school to find opportunities for programming. 
Many of them are part of robotics teams, which I think are 
phenomenal, some great programming opportunities that are a 
part of that. Others have done some other coding and so 
grateful for that.
    But I guess my first question I'll address to Mr. 
Yongpradit, and I do appreciate Code.org. I've gone through 
that the last few years with different high schools and young 
middle schools and grade schools and had my own kids with me as 
we were doing that, and just a really good program that I 
appreciate.
    I just wanted to see, you know, as a parent, I've got--my 
wife and I have four kids. My youngest, my 13-year-old I think 
really wants to go into programming or some other science 
field. What would you recommend that I could be doing to be 
helping our school do more but also looking for more 
opportunities as a parent to open up opportunities for my own 
children or other students as well?
    Mr. Yongpradit. First off, I want to thank you for 
participating in the Hour of Code--
    Mr. Hultgren. Great.
    Mr. Yongpradit. --so many times. That really helps the 
cause at the local level in Illinois, as well as the national 
level to see Members of Congress participate in that event.
    One thing I wanted to note about Illinois, Mr. Lipinski, 
Mr. Hultgren, there actually is an Illinois State Task Force 
for Computer Science. They just submitted their recommendations 
about a week ago, so you might want to take a look at that.
    Mr. Hultgren. Good.
    Mr. Yongpradit. In terms of increasing opportunities, you 
know, the Hour of Code actually has a section called Beyond an 
Hour of Code, and so there are all these online self-paced 
experiences that kids can do on their own and teachers can pick 
up and bring into the classroom. And these are things that 
don't require a whole new course. The science teacher, the math 
teacher can just take a little break from the standard 
curriculum and introduce some computer science, so that's one 
way of doing it and making them aware of it. And then 
obviously, there are a lot of afterschool activities as well 
like those robotics clubs, First Robotics, and things like 
that. So these are ways to get kids engaged when they don't 
have something in school, but again, I always repeat, the most 
important lever is getting a teacher in the school to offer 
that course.
    Mr. Hultgren. Yes. Just a few seconds left, but Dr. 
Alivisatos, if I could address this to you. According to your 
testimony, 100 out of 1,576 schools or about six percent, 
produce over half the number of graduate students in the United 
States with bachelor's degrees in computer science. Why is 
this, and what would it take to increase the number of 
graduates from more schools?
    Dr. Alivisatos. Yes, I mean, look, this is an enormous 
challenge right now because most schools just don't have the 
faculty to do it. And, of course, you're competing with this 
enormous demand in the workforce----
    Mr. Hultgren. Right.
    Dr. Alivisatos. --for people with those skills. Instead of 
teaching, they can be in the workforce and be better 
compensated, so, I mean, that's a huge part of it.
    You know, I think that what makes it more attractive for 
people is when the job itself also has components to it that 
are outside of, sorry, just the strict classroom, and I think 
that that's the case for the people that you want to be 
teaching these classes at the level where they're going to be 
producing undergraduate degrees. They have to be engaged 
themselves also in thinking about new ideas and attacking 
problems that society really cares about. That motivates 
people. Many people will in fact be in careers that don't 
compensate them quite as well if they have the opportunity to 
do something they find greatly meaningful themselves. And so I 
think trying to approach how we can offer the opportunity to 
people who teach in those organizations, that opportunity to be 
thinking about cybersecurity research or things of those kinds, 
that gets them motivated and they'll stay.
    Mr. Hultgren. Yes. Well, thank you all. I, again, could go 
on for a long time. This is so important. I would love to hear 
a little bit more. Coding boot camps, we're hearing about some 
of these things that have been happening that I think have been 
pretty powerful and even trying to find ways to bring that to 
younger kids to go beyond I think could be amazing. Also, we've 
seen some incubators start up in some of our universities where 
it's that practical applied, and great relationships being 
built while they're still in school. But my time is long past 
expired. I apologize. I yield back.
    Chairwoman Comstock. All right. Thank you.
    And we now recognize Ms. Bonamici.
    Ms. Bonamici. Thank you, Chair Comstock and Ranking Member 
Lipinski, and our witnesses.
    I also serve on the Education Committee, had a lot of 
conversations about this topic. I'm the founder and Co-Chair of 
the Bipartisan Congressional STEAM Caucus, which now has 87 
members, including the Chair and the Ranking Member, and I have 
invitations here for those of you who are not yet on the 
caucus. STEAM recognizes the importance of STEM but also the 
value of arts and design to teach students how to think 
creatively and critically and be adept at problem-solving.
    We have many examples in my district in Oregon of the 
benefits of STEAM, for example, the Nike world headquarters 
where they have engineers developing state-of-the-art equipment 
and scientists experimenting with new materials and artists 
making the products unique.
    We have right now scientists and engineers working with 
architects and designers to build new high buildings out of 
cross-laminated timber.
    We have two nationally recognized public STEAM schools 
where educators are challenging students in STEM topics but 
also encourage them--encouraging them and inspiring them to 
create and imagine and make things, skills that were all--will 
all be really extremely useful when they reach the workforce.
    But this just is not just happening in Oregon; it's 
happening across the country. General Motors just said this 
about an upcoming STEAM conference: ``It's important for 
students to understand that not only does GM employ many 
engineers with STEM-related backgrounds but also requires 
people who excel in the artistry that designers bring to the 
job of designing beautiful cars.''
    There's a couple of researchers at Michigan State 
University, the Root-Bernsteins. They write and study about 
creativity. They found the more accomplished scientists are, 
the more likely they are to have an artistic hobby and be 
engaged in arts and crafts. Dr. Mariale Hardiman at Johns 
Hopkins just did a--you're nodding your head at all of this, 
Doctor. You know. Johns Hopkins just did a study showing that 
students who learn STEM classes with arts integration have 
better retention than students in conventional lessons.
    And we've had a lot of conversations about the gender gap 
in STEM. Two Bit Circus, which is a Los Angeles-based 
engineering and entertainment company, just did a survey, 
hundreds of families. They confirmed the gap; it's no surprise. 
Boys say they're interested in technology and girls say they 
like art. In fact, 99 percent of the parents surveyed said 
their daughters did arts and crafts. So, when girls find out 
that they can do art and STEM, we're starting to close the gap.
    So, last week, the STEAM Caucus and the CTE, Career and 
Technical Education Caucuses held a joint briefing. There was a 
representative there from the Rhode Island School of Design. 
They've been academic leaders in STEM. Their former President 
came from MIT. He was at our caucus kickoff years ago. This 
representative from RISD has been traveling the world. This is 
happening--every school in Barcelona is now going to be STEAM 
instead of STEM. Beijing, they're expanding STEAM instead of 
STEM. It is not the time now for the university to fall--or, 
excuse me, for the United States and our universities and our 
K-12 system to fall behind in being innovative.
    For my colleagues on the other side of the aisle, Governor 
Kasich just said in his last State of the State address last 
year--STEAM education, I add the capital A for the arts. Any 
student who's going to succeed later in life, including someone 
choosing a technical career, is going to need creative skills 
and know how to apply creative thinking. These skills are best 
developed by exposure to the arts, science, technology, 
engineering, math, and arts. And Governor Kasich said this: 
``Arts community, did you ever think you'd see a conservative 
Republican ever say this? But we believe it. These are 
essential for success in the 21st century careers.''
    So--and I want to emphasize--I mean, the Chairwoman talked 
about Montessori. Montessori, great model, they emphasize arts 
and music as well, so they're adding science and STEM, but they 
don't cut arts and music. And we heard from one of our 
panelists about how, during No Child Left Behind, curriculum 
was narrowed.
    So, thank you to all of you who mentioned the importance of 
funding in--under the Every Student Succeeds Act. It's so 
important, title 4, critical to have that funding that focuses 
on well-rounded education, including STEAM and computer 
science.
    So, Mr. Brown, can you tell us how--through all of these 
coalitions, how can we help students become better creative 
problem-solvers and innovative thinkers, and what role do you 
see for arts and design?
    Mr. Brown. Well, one of the things the data shows us is 
however you get kids interested in these fields, they do better 
in the classroom if they're interested, and I think that's the 
hook of STEAM. I mean, some kids are going to get really 
excited about the creativity aspects of it. That's what will 
bring them in. Others respond to mentorship. Others respond to 
doing things with their hands, right? However you can get kids 
interested in these fields, that's how you will give them the 
ability to do better in school.
    Kids who are on football teams tend to be motivated to stay 
academically eligible so they can play football, right? I hope 
that same thing is happening with robotics competitions and 
other things where the social capital of liking something is 
helping them do better in school. So, it's things that get kids 
interested and meeting them where they are that will help us 
with this equation.
    Ms. Bonamici. Right.
    Mr. Brown. So, I think one of the things the National 
Science Foundation can do that's incredibly important is do 
better and more extensive studies of these phenomenon so we 
understand exactly how to amplify them and to take advantage of 
them and establish the connections between the value of 
inspiration and interest and performance in the classroom so 
that we understand that these programs are not just great 
because they get kids smiling but also because they contribute 
to the outcomes that we know are valuable and that we'll spend 
scarce dollars on.
    Ms. Bonamici. Well, absolutely. And the brain researchers 
there, the Oregon Health Sciences University Brain Institute, 
there have been studies that show that when students have both 
halves of their brain educated, they do become more creative 
and innovative, and it's critical thinking that is so 
important. And so thank you for the nodding heads.
    And I do invite any of the Committee Members who are not 
yet on the STEAM Caucus to join and we'll get the number up 
past 87.
    Thank you to the panel, and I yield back.
    Chairwoman Comstock. Thank you, Ms. Bonamici. And I do 
appreciate your emphasizing the arts in that since I have Wolf 
Trap in my district. They have a wonderful STEAM program that 
now is--I think Ohio is one of the States, so before Governor 
Kasich was celebrating that, Wolf Trap was sharing this program 
all around the country, and I think it's now gone beyond even 
this country. And it was something we started in the State 
House where we just gave them a grant to do that, and they have 
been wonderful.
    And then also, since my granddaughter's favorite show is 
talking about grandparents, so I will talk about my 
granddaughter again. Her favorite TV show--usually, I'm not 
promoting TV shows--but Little Einstein, which is STEAM; it's 
not just STEM--they have music all throughout that program so 
it's all science and she knows all this classical music now 
from Little Einsteins.
    And I got her--she started watching that because we had a 
young man who came from our district and he had gotten perfect 
scores on everything in math and science. And so I did ask him, 
``well, what did you do, what'd your''--and I said, ``well, you 
probably didn't watch any TV or do''--and he said, ``no, I 
watched Little Einsteins,'' so very well-rounded on that.
    So, sorry to--and I'll plug all the members also, join the 
STEAM Caucus, too, because it's great.
    So, I now recognize Mr. Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair, very much.
    Mr. Yongpradit, what role does video game play into any of 
this, and how does the--all the kids--you know, right now, you 
hear a video game is so much bigger than the film industry and 
that more girls are playing than boys. So what role if any does 
it play in stimulating interest in computer science?
    Mr. Yongpradit. Well, that is a great question at a great 
time actually since we just talked about STEAM and Mr. Brown 
talked about however way you get them interested, that's the 
way to go. So, in fact, I taught game design and game 
programming as a teacher, and that was my hook not just for men 
but for women as well. And in fact we had a special women's 
club just for making apps and games.
    So, I'd say the role is it's a hook, number one. Number 
two, it's a great environment for introducing the arts, the 
programming aspect, as well as an entrepreneurship aspect. 
Video game programming is just a great medium for exercising 
all these different skills and areas of interest.
    And it's obviously important that we teach our kids how to 
create these video games and not just play these video games. 
So all those girls who are playing video games on their 
smartphone these days, Candy Crush, whatever, they need to 
really think about how these games work at the minimum, and 
then hopefully also learn how to program these games.
    Mr. Beyer. Great. Thank you very much.
    Ms. Mooney, you know, it's sort of--it's been written 
greatly that Silicon Valley is an incredibly unfriendly place 
for women and even New Yorker cartoons about, you know--and 
that high-tech startups in general are fairly functionally 
misogynist. So how do you--there's a hard glass ceiling there, 
especially in these high-tech places. How do you encourage 
young women to study computer science when they have no hope of 
ever being a manager or an owner?
    Ms. Mooney. Well, thank you for the question, Chairman 
Comstock, Mr. Beyer. We hope that there will be inspiration 
along the way so they don't automatically think there's no hope 
for them.
    We have started a Women in Technical Career luncheon series 
where we bring women engineers not just from Micron but from 
area companies to go into high schools and have lunch with the 
girls. And they talk about their struggles and they talk about 
the grit that's needed and their mentors that helped them 
through the way. And we feel that this conversation, it's very 
comfortable, it's at the girls' high school, bring in pizza. 
They can have a very intimate discussion with how these female 
engineers have progressed through their career and established 
relationships with the females so, as the students are going 
through, finishing their high school and on off into college, 
they have a mentor, a buddy by their side helping them every 
step of the way.
    But it really is about making sure that females see 
themselves and can see the path and have some support all along 
the way.
    Mr. Beyer. I'd also suggest we need to try to figure out 
what if anything we can do to help change the culture----
    Ms. Mooney. Sure.
    Mr. Beyer. --in that high-tech community.
    Ms. Mooney. Sure.
    Mr. Beyer. Mr. Brown, Dr. Marshall talked about reconciling 
the 500,000 open computer jobs with the 6 million Americans who 
have stopped looking or that--and everyone talks about the 
skills gap. How credible is it or what's the dilemma when you 
take a 50-year-old, 55-year-old, 60-year-old coalminer or 
steelworker or textile worker who's been displaced by the new 
economy, how readily can they adapt to computer science?
    Mr. Brown. You've hit right at the heart of the issue 
there. I mean, that's a difficult problem, right? You have to 
look somebody in the eye and say your skills are dated. If you 
want to get a job, you've got to have a different set of skills 
or maybe you've got to move to a different location, right? And 
one of the things our education system doesn't do very well is 
target that specific area within society. Our educational 
institutions move really slow.
    Dr. Marshall also asked about community colleges, and the 
solution to those problems are probably going to come from the 
smaller, more nimble, more online places within the education 
system that can lower those barriers so that you can--because 
what you really can't say to a 50-year-old laid off electrical 
engineer or a coalminer is you got to go to college for four 
years and pay $150,000 to get a job, right? That's not viable 
at all. And so many of the initiatives that we focused on job 
retraining are not focused on the structural aspect of you have 
people with mismatched skills. So, we haven't really done much 
in that space.
    And the innovators that are happening in that space are 
focusing on not degrees necessarily but employable credentials. 
And that's--when you see companies looking to hire veterans or 
looking to hire other displaced populations, generally what 
they're not looking for is a degree as the certificate for 
employability. It's some other form of credentialing.
    And again, I go back to the fact that the National Science 
Foundation is doing research on all these different modalities. 
Teachers, people in the education system don't understand this 
problem either, so when that person shows up at a community 
college, they may not know what that 50-year-old displaced 
employee needs either.
    Mr. Beyer. Great. Thank you very much. Thank you, Madam 
Chair.
    Chairwoman Comstock. Thank you. And I know we share a lot 
of constituents at George Mason University, and I want to give 
them a plug because they have the video game institute, which 
is a great place, and those are six-figure jobs that people are 
getting in that video game industry--they're in medicine, 
they're in, you know, all kinds of fields. And as you all know, 
I'm sure you've seen--I know when I go out to schools and I 
often ask the kids how many of you play video games, it's like 
how often do your parents get upset that you're playing video 
games? I said we need to change that paradigm because people 
are all upset about what video games they're playing and 
getting them engaged in understanding that there is a lot of 
educational component to that, as well as entrepreneurship and 
all of the things that you identified. So, I wanted to give 
George Mason a plug on that. And I know they get out there in 
the elementary schools, too.
    I now will recognize Mr. Foster for five minutes.
    Mr. Foster. Well, thank you very much, Chairman Comstock, 
and also for letting me sit in on the committee today, which I 
normally do not serve on, but I very much appreciate it.
    I'm Bill Foster. I'm best known as being the only Ph.D. 
scientist in Congress and--but I'm also the only integrated 
circuit designer, which--in addition to that, I'm a businessman 
who started a tech company with my brother in our basement that 
now manufactures the majority of theater lighting equipment in 
the United States. And we just went over 1,000 employees, and 
we've had continual trouble hiring people with appropriate 
technical skills.
    And one of the really important factors in that is a 
government commitment to high-quality education, period, which 
unfortunately has become a matter of some dispute. We operate 
in Wisconsin where the legislature and the Governor has, you 
know, acted in a very strong way to--and against the interests 
of the University of Wisconsin where I graduated from. It's 
resulted in a hemorrhaging of faculty from that institution and 
a lot of uncertainty about whether there's a commitment to 
high-quality education. And that has real economic 
implications.
    I was discussing recently with my brother, who has been 
running the company for a long time, about whether under these 
circumstances he would consider developing that business in 
Wisconsin anymore simply because of the damage that's been done 
to the education system. So, it is important to preserve this, 
and I hope there is a bipartisan commitment to that.
    I also am the Co-Chair of the New Democrats Committee on 
the Future of the Workforce, which is why I'm, you know, so 
interested in this hearing. And the question I have is within 
the fast-paced economy--fast-moving technical changes in our 
economy, how do you aim for the jobs that will actually be 
there five years from now? You know, there--and particularly in 
terms of the breadth of knowledge you shoot for. You can--you 
know, if you say, okay, we're going to have cell phones in our 
future, you can teach people about the mathematics behind, the 
quantum mechanics behind, the logic gate design behind the 
computer, logic design behind the programming, behind the--you 
know, the app design and on and on. There's--and you have to 
educate people at an appropriate level.
    You know, I think--you know, I'm a big fan of Micron as a 
company, but the number of integrated circuit designers in our 
economy will never be large, okay? And so you can't--you know, 
that's not the job of the future for the majority of people. 
And I think--you know, I worry that, for example, a few years 
ago or a decade ago we made probably a mistake in training a 
whole generation of people to be web designers and learn HTML. 
If you're a web designer today, you don't use HTML. You use 
high-level tools that are comparable to maintaining your 
Facebook page. And so you can--and similarly, big data 
analytics that you talked about will probably take place a 
decade--and now having a conversation with Alexa and you won't 
even be writing the code that does this. Giant AIs will do it 
for you, and the cloud will do the computing.
    And so trying to understand how you--you know, how you 
target this in terms of the altitude and particularly the 
danger that you train someone for a very narrow discipline that 
will be vanished by the time--and so I was just wondering how 
you think about that problem because I know I worry about it 
all the time. Anyone who wants to grab it.
    Mr. Yongpradit. So a number of States got together in 2015 
to create the K-12 Computer Science Framework. And what it does 
is it codified the essential basics that every citizen needs to 
know when it comes to computer science. These are the essential 
concepts. These aren't things that disappear in 5 or 10 or even 
15 or 20 years. These are the things that have existed over the 
last 50 years in computing and will continue to exist. So, 
basically focusing on the core foundational concepts in the 
computing field is the way to go educationally so that students 
who are in kindergarten now who are getting super excited about 
computer science and what they're learning--aren't ill-prepared 
when they get to the age of 22 and they're approaching the 
workforce. So, educationally, we need to focus on the core 
concepts.
    Dr. Alivisatos. Maybe I can just jump in there, too, and 
say--I mean, for us, this is very, very core to what we do as a 
university, and of course you're going to get a major,in some 
specific subject area, but it's going to change no matter what. 
So we definitely have not succeeded if we haven't somehow 
enabled somebody to be able to have deeper skills that allow 
them to learn new things and to be engaged.
    Having said that--and to your point about STEAM--a lot of 
that involves having embedded into the education the idea of 
creativity and of imagination. That has to be a part of it 
certainly.
    But I will say that we're also finding that the demand on 
our campus for people to come back multiple times during their 
life for a period of time, not for four years and not for 
$150,000, but to come back for a period of time, the demand for 
that is just off-scale. We almost can't meet it right now. And 
so we're spending a lot of time trying to think through whether 
we can make a commitment to somebody that comes as an 
undergraduate, that they'll be able to come back to our campus 
a certain number of times during their life at points where 
their careers are transitioning and changing, and then we can 
help to serve them again. And I think that's probably something 
that we will end up doing.
    Mr. Foster. It appears my time is expired, so I'll yield 
back.
    Chairwoman Comstock. Thank you. Okay. I guess we are at our 
completed time here.
    Thank you so much for all the great work that you're doing 
out there in highlighting these issues and helping illuminate 
both for us and for all our companies who are engaged, all of 
our communities and teachers who are engaged. So as the wife of 
a math and computer science teacher, as the mom of a biology 
and forensics major, I really appreciate the work you're doing. 
And I think what is clear here is we all need to be lifelong 
learners in this field because this is going to continue to 
change. This needs to be incorporated everywhere from preschool 
through all of our lifelong training and retraining and 
upgrading of our skills. So, I think you've really helped 
illuminate this issue that will be an ongoing issue for our 
time.
    So, I thank you and the members for their questions, and 
the record will remain open for two weeks for additional 
written comments and written questions from the Members.
    And the hearing is now adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Answers to Post-Hearing Questions
Responses by Mr. Pat Yongpradit



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Letter submitted by Representative Barbara Comstock


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





   Qualcomm letter addressed to Representatives Comstock and Lipinski


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all] 
                                 
                                 
                                 
                                 
                             
</pre></body></html>
